<html>
<title> - In the Best Interest of the Child: Best Practices for Keeping Families Safely Together</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





115th Congress                                Printed for the use of the
2nd Session             Commission on Security and Cooperation in Europe
_____________________________________________________________________________





 
                  In the Best Interest of the Child:
                      Best Practices for Keeping
                       Families Safely Together
                  









                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 











                         DECEMBER 14, 2018
                         
                         
                         
                         Briefing of the
          Commission on Security and Cooperation in Europe
_____________________________________________________________________________

                         Washington: 2019
                            

















                 Commission on Security and Cooperation in Europe
                          234 Ford House Office Building
                               Washington, DC 20515
                                    202-225-1901
                                <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b2a2b2b491bcb0b8bdffb9bea4a2b4ffb6bea7">[email&#160;protected]</a>
                                http://www.csce.gov
                                @HelsinkiComm





                          Legislative Branch Commissioners

              HOUSE                             SENATE
CHRISTOPHER H. SMITH, New Jersey       ROGER WICKER, Mississippi,
          Co-Chairman                    Chairman
ALCEE L. HASTINGS, Florida             BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama            JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas              CORY GARDNER, Colorado
STEVE COHEN, Tennessee                 MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina         JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois               THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas              TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                  SHELDON WHITEHOUSE, Rhode Island 
         
                          Executive Branch Commissioners

                            DEPARTMENT OF STATE
                            DEPARTMENT OF DEFENSE
                            DEPARTMENT OF COMMERCE
                            
                                   [II]
                                   
                                   
                                   
    ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE
      




    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


  ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE
  

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.










                   In the Best Interest of the Child:
                      Best Practices for Keeping
                       Families Safely Together

                               _________

                           December 14, 2018


                                                                  Page

                              PARTICIPANTS

Allison Hollabaugh Parker, General Counsel, Commission on 
Security and Cooperation in Europe.......................            1

Maridel Sandberg, President and Executive Director, Together 
for Good ...................................................         3

Jessica Foster, Executive Director of Strategic Partnerships, 
Youth Villages .............................................         4 

Christine Calpin, Managing Director for Public Policy, Casey 
Family Programs ............................................         7 




                                 [IV]







                   In the Best Interest of the Child:
                      Best Practices for Keeping
                       Families Safely Together

                              ----------                              

                           December 14, 2018

            
            
            
            Commission on Security and Cooperation in Europe
                             Washington, DC


    The briefing was held at 10:30 a.m. in room G-11, Dirksen Senate 
Office Building, Washington, DC, Allison Hollabaugh Parker, General 
Counsel, Commission on Security and Cooperation in Europe, presiding.
    Panelists present: Allison Hollabaugh Parker, General Counsel, 
Commission on Security and Cooperation in Europe; Maridel Sandberg, 
President and Executive Director, Together for Good; Jessica Foster, 
Executive Director of Strategic Partnerships, Youth Villages; and 
Christine Calpin, Managing Director for Public Policy, Casey Family 
Programs.

    Ms. Parker. Good morning. On behalf of Chairman Roger Wicker and 
Co-Chairman Chris Smith, I would like to welcome you to this briefing 
of the Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission. My name is Allison Hollabaugh Parker. I'm 
general counsel at the Commission. We are a bicameral, bipartisan, 
independent Federal commission devoted to the promotion of human 
rights, military security, and economic cooperation in the 57 
participating States of the Organization of Security and Cooperation in 
Europe. These states are composed of countries from North America, 
Europe, and Eurasia.
    The OSCE has a few commitments touching on our topic today. Some of 
those commitments regard parental rights, primarily the right of 
parents to direct the moral and religious education of their children 
and to bring the children up in the culture of the parents. This comes 
from the Vienna Declaration of the OSCE in 1989. OSCE commitments also 
generally reaffirm the right to protection of private and family life, 
which will be subject only to such restrictions as are prescribed by 
law and are consistent with internationally recognized human rights 
standards.
    Some international human rights standards, to which most of the 
OSCE participating States are subject, arguably allow broad state 
interventions in families based on the state's conception of the best 
interest of the child. For instance, in Sweden and Germany, State 
education rather than home education by parents is believed to be in 
the best interest of the child. These states believe it is better to 
remove a child from its biological parents, rather than let the child 
be educated at home. Other participating states, such as Norway, 
regularly remove children from their homes because the parents, quote, 
``lack parenting skills.'' Norway has an extremely high level of 
children being removed from their parents, especially immigrant parents 
living in Norway, even where there has been no evidence of violence or 
drug abuse in the family.
    Between 2008 and 2014, Norway doubled the number of children being 
put into emergency care. The most common reason for such removals were, 
quote, ``lack of parenting skills.'' In 2015, the situation of children 
being removed from their parents in Norway was so dire that nearly 300 
lawyers, psychologists, and social workers wrote a national notice of 
concern to the government of Norway. They said that a long list of 
children are exposed to serious failures of understanding and 
infringement of their rights by the low level of evidence required for 
removing these children from their homes. Several Norwegian families 
have received asylum in Poland out of fear that their children would be 
taken away in Norway. However, Norway's low threshold for removals was 
influenced by a case in 2008 where a child should have been removed 
from his home but was not and was subsequently killed by an unsafe 
parent in the home.
    The United States has also grappled with where the threshold should 
be for removal of children from their parents. One major consideration 
in this balancing of interests should be the potentially lifelong 
suffering and even abuse faced by children who were removed from their 
own families, and who remain without permanent families in the foster 
care system. The statistics in the United States, for those who have 
been removed permanently and not found new permanent families, are 
sobering. While foster families can offer critical and timely emergency 
care for children in need, studies show that children who stay in 
foster care without permanent parents suffer lifelong emotional harms 
and life skills underdevelopment. The extreme challenges faced by these 
children put them at a high risk for homelessness, unemployment, human 
trafficking, and even incarceration. More than 20,000 young people aged 
out of foster care in the United States in 2016, deprived of the 
support of their own or adoptive permanent families.
    These children in the United States and Europe are perhaps saved 
from an immediate emergency by government officials seeking to act in 
their best interest, but then exposed to the lifelong harm of not 
belonging to a functioning forever-family. What if these youths and 
their families of origin had been given the support they needed to stay 
together--such as mental health services, substance use treatment, in-
home parenting skill training, and supportive community? Today the 
commission is hosting a panel of experts on the frontlines of best 
practices to preserve families safely together.
    Our first speaker this morning is Maridel Sandberg. She is the 
president and executive director of Together for Good. She's spent the 
last 36 years advocating for vulnerable children around the globe and 
protecting social orphans domestically. In her work, she has helped 
hundreds of families adopt children, and many others foster. She serves 
as a founding board member of the Christian Alliance for Orphans, and 
in 2017 launched Together for Good, which grew out of a vision to 
better love neighbors based on Isaiah 1:17, ``Learn to do good, seek 
justice, correct oppression, bring justice to the fatherless, and plead 
the widows' cause.'' Maridel is the mother of eight children, three by 
birth and five adopted, ages 15 through 38. Her greatest job is being 
called grandma by 16 grandchildren, six of them adopted from the United 
States, Ethiopia, and Uganda.
    Ms. Sandberg.
    Ms. Sandberg. Thank you. Together for Good is a network of 
volunteers in the private sector and professional staff that come 
alongside parents that are facing crisis and stress, and provide 
ongoing social support--practical help--so that families are not left 
alone in their time of crisis and children can be safe until stability 
is established. We come alongside families in a multitude of ways. We 
have crisis hosting of children. Approved families are hosting children 
temporarily while parents have a safe option to clarify their issues. 
We offer respite care, periodic pre-planned, daytime or overnight care, 
to alleviate that parental stress. We want to pursue healthy relational 
development.
    We all know that everybody needs an extra friend, and so we offer 
that once a week, or one time per month, and then also wraparound care 
for families--both families that are hosting children, but also 
families that are in those crises. Our best work is done in 
collaboration with the community at large. Parents are empowered to ask 
for help. Parents are empowered to not worry about whether they're 
going to lose their children to foster care. Parents voluntarily ask 
for help, and we voluntarily provide that help. We uphold and honor and 
respect for the God-given role as a parent. And we volunteer to help as 
they volunteer to ask for help. We believe that becomes the power for 
change.
    Just this week, I met with a woman named Yolanda. I said, let's 
meet at McDonald's and play on the playground with the kids while we do 
paperwork. And as I sat at McDonald's Yolanda said to me, I've never 
done this before. And I said, What? She said, I've never sat across the 
table with a mom at McDonald's having a Coke. And I said, What do you 
mean? And she said, Well, Maridel, I have a professional who comes in 
to make sure I take my meds. I have another professional who comes in 
to make sure my kids are getting to school. And I have mental health 
visits once a week with my therapist. But I don't have a friend like 
this.
    That's where the community needs to make a difference. Early 
intervention, child abuse prevention. We believe that power of 
relational support and the fundamental value of family preservation. 
Children belong with their parents whenever possible, but sometimes 
that's not possible. And then we do engage with the foster care system 
and the children protection workers. But early intervention, giving 
that opportunity to a family that just needs extra support--who doesn't 
need a grandma? Who doesn't need a friend in their life? We all do. 
This important work is going to be the change agent because we believe 
that people don't know about what's happening in child welfare.
    The outside world wants to help, but they don't know how. And so 
how do we provide a large net of engagement to say: Faith community, 
you have a place at the table here. Be a good neighbor. Love your 
neighbor. Be a good friend. Be that person at school who notices the 
child in crisis, and approach that mother and offer support. We have 
host families that are approved through background check who will 
temporarily host children, but also be a good friend to those families. 
It's going to take a village. And as I said earlier, the village is 
really large. And we're all needed to play a part.
    Thank you.
    Ms. Parker. Thank you, Ms. Sandberg. I appreciate Together for 
Good's approach of standing in the gap between families in need and the 
legal aspects of the foster care system, offering that intermediate 
space to avoid crisis that would entangle the children in foster care 
actually occurs.
    Speaking next we have Jessica Foster, executive director of 
strategic partnerships for Youth Villages. She works with their 
partnering initiatives with a focus on building relationships and 
agreements with partners and payers, supporting partners in managing 
and operationalizing Youth Village programs, driving YVLifeSet growth 
and other services through partners, and achieving the organization's 
Federal policy goals.
    Before joining Youth Villages in 2011, Foster was at the Boston 
Consulting Group, where she supported the strategy and design of 
multiple site implementation plans for global corporate merger and 
acquisition projects. She evaluated and recommended improvements to 
performance management of a large public school district, and developed 
government advocacy strategies for a large consumer packaged goods 
company.
    Ms. Foster is also an alumna of the Hill. She served here as a 
legislative aide for Senator Arlen Specter on foster care, adoption, 
welfare, economic development, public housing, and nonprofit issues. 
She holds an MBA in marketing from Wharton School and a bachelor's 
degree in public policy from Brown University.
    Ms. Foster.
    Ms. Foster. Thank you. I'm going to stay here because I have some 
slides. But good morning. Thank you for having me. And thank you 
Helsinki Commission for inviting me and my colleagues here also 
speaking today. I'm going to share a little bit about just what is 
Youth Villages and, more importantly, through the history of Youth 
Villages' work with children and families, what are some things that we 
have learned to share with folks on the Hill, to share with the field 
about what types of interventions and approaches are effective at 
keeping children safe and stable in their families and in their 
communities.
    Youth Villages is a national organization in the U.S. And it's 
been--I'm not very educated about what happens outside of the United 
States. It was really interesting to hear about Norway and other 
countries. And while we have a long way to go in the United States, we 
have learned a lot and evolved a lot in the child welfare and foster 
care system in the past several decades. Youth Villages was founded in 
1986 with the merger of two residential programs. So there was a 
program for children who were removed from their home, brought to a 
residential facility, treated, and then returned to their home.
    Over the 32-year history of Youth Villages as an organization, 
through collecting data on the outcomes of how the children and 
families that we serve are doing, we learned that a lot of these kids 
didn't do very well when they went back home. And that was because you 
really need to treat the whole family and serve children in their home 
family if you want to have sustainable and lasting change. So with 
that, over our history the organization has evolved to have a much more 
significant focus on preventing children from being removed from their 
homes in the first place. Or if they're removed and taken into custody, 
providing them support when they return back to their home and into 
their community so that they have a stable return and don't bounce back 
and forth into the system.
    Youth Villages can't serve every child in America that is at risk 
of entering the foster care system. But we do believe that we have 
learned from our experience, and through sharing what we have learned 
we can have an impact on every child that is in the system in the 
United States. This is just a quick snapshot of where Youth Villages 
is, the states that we operate in. And as you can see, predominantly 
the services being provided by Youth Villages, either by us or by other 
public and private agencies that we train in best practices, is interim 
family services and older youth services for young people aging out of 
foster care.
    I want to highlight five tenets of evidentiary family restoration. 
That's a term we came up with at Youth Villages. And it was really in 
our effort to crystallize what are the key elements of effective 
service provision for keeping children safe and stable at home in their 
communities. So these are approaches that we would recommend to other 
organizations or other countries as they're thinking about how to 
protect and preserve families.
    The first is treating children and families simultaneously. So as I 
mentioned at the beginning, we started as an organization really 
treating children separate from their parents in residential programs. 
But we learned very quickly through collecting data on outcomes that 
the most effective approach is to be treating children and families 
simultaneously. So primarily Youth Villages has staff in the field, in 
families' homes, sitting on the sofa in the living room with a family 
or going to McDonald's with the family--whatever is the most convenient 
for the family, the time and location that works for them, to resolve 
whatever issues that they may be having.
    The next is requiring measurable, positive long-term outcomes. 
There are a lot of organizations out there in the United States, and I 
imagine internationally, that care a lot about the fate of children. 
They don't necessarily know if what they're doing is actually making a 
difference and making a sustainable difference. We are very committed 
to tracking the outcomes of kids and families we serve up to 2 years 
post to when they complete receiving services from us. And we strongly 
encourage other organizations and government agencies to look at the 
data post-completion of services to really know if what we're investing 
public dollars in is making a difference.
    The third is sustaining treatment in the community. A lot of 
organizations--a lot of service providers require that families come to 
them, come to their office. Public agencies require that too. We have a 
strong belief in having workers go out into the field and meet children 
and families where it is most convenient for them, where they are 
comfortable, in their community.
    The fourth is using highly intensive clinical protocols. Most of 
the children that are in the child welfare and foster care system or at 
risk of entering the system have experienced some sort of trauma in 
their life, instability in their life that's leading to that 
involvement. And it's really critical that the staff that are working 
with children and families be trained clinically, be clinically 
informed using evidence-based interventions and driving clinical 
practice in how they're serving kids and families.
    And then the last one is delivering accountability to the families 
being served and the funders who are paying for services. 
Accountability is something we take very seriously. One way, through 
our service models, that we achieve accountability is that we have one 
staff that is responsible for the success of the family. So rather than 
saying, this person's working on school, this person's working on 
housing, this person working on clinical support, we have one person 
that builds deep trust and engagement with a family. And they are 
trained to address the range of issues that that child and family is 
facing and to, as an individual, be responsible for the success of that 
family. And we believe that that type of program structure and 
organizational structure drives lasting change and requires much less 
coordination and time spent sharing information between workers, with 
one person who's really dedicated to the success of a child and a 
family.
    How am I doing on time?
    Ms. Parker. Great.
    Ms. Foster. Okay. This next slide is just a quick snapshot. And I 
took it to share--the takeaway here isn't just what has to happen in a 
home with a family to be successful. It's also really how does an 
organization have to be structured to be capable of achieving results. 
And so not only do you have to have a good program model in place that 
is designed to make a difference with kids and families, you have to 
have a way of monitoring how that program is being implemented, 
particularly if it's being implemented in different locations, and also 
to track the outcomes of what is being achieved through those services.
    Not only does Youth Villages have a defined program model of how we 
work with kids and families, we're measuring how that program is being 
implemented on a daily basis. Are workers visiting families? Are they 
using intervention? How timely are their sessions? And then we're also 
tracking the outcome of those services, and so trying to build an 
infrastructure for good in-home family services in another country, not 
only looking at what does the program look like, but what are the 
agencies implementing that program, and how are they structured to 
maintain quality and to track outcomes over time?
    Just to give you a quick sense of some of the challenges of the 
children that we work with, and these probably translate across country 
lines, a range of things--from behavioral challenges, to trauma from 
abandonment, different types of abuse, depression, self-esteem, running 
away, drug and alcohol abuse, problems with sexual behavior--a range of 
issues are what come to us when we're working with children and 
families. And it is that clinically informed and individualized model 
where a worker is providing very specific interventions to different 
children in different families to support them that is critical, 
because different kids come with different issues that they need to 
work through.
    Okay, I'm going to skip through the next couple slides. And what I 
really just want to end on is through all of this work that we have 
provided over the 32 years of Youth Villages' history, we've 
crystallized a number of key principles that need to be in place for an 
effective and well-functioning child welfare system. The first, which 
is really the theme of this panel today, is that leaders are 
philosophically aligned with the need to keep children and families 
safely at home in their communities. And that philosophical alignment 
from the top around what is the goal is essential. Another is that 
children are systematically assessed when they're coming into the 
system or being raised anywhere in the system, and that we're assessing 
what's really going on. What are the underlying drivers and challenges? 
You can't solve a problem until you understand what that 
problem is.
    The next that's very significant in the United States is 
collaboration among agencies. A lot of these children and families 
touch different agencies--they're touching the child welfare system, 
the juvenile justice system, the education system, the health care 
system. How do you share data across agencies and make sure that 
there's coordination?
    The fourth is community-based providers. Youth Village is a 
provider. We contract with public agencies to implement services. But 
they're held accountable for high quality and they're also selecting 
contracts based on quality, as opposed to just whoever has the lowest-
cost proposal. The fifth is that public dollars are used wisely. The 
sixth is that services are clinically informed and effective.
    The seventh is that systems are in place to reunite children and 
families as quickly as possible. I know Christine is going to be 
talking about the Family First Prevention Services Act which has a very 
strong program on trying to focus on preventing kids from entering 
care. It's also very important to think about how you bring children 
back into the community if they have been brought into custody.
    And then the last is the importance of supporting young people who 
emancipate or age out of a system in the United States. About 20,000 
young people annually exit the foster care system having never achieved 
a permanent family placement. And so it is a responsibility of us as a 
country to help those young people successfully transition to 
adulthood, since we failed them in providing them a safe family in 
their childhood.
    Ms. Parker. Thank you, Ms. Foster. I so appreciate Youth Villages' 
focus on treating the whole family and serving the children within the 
family to have sustainable change. We all want to see children reunited 
with their families, but unless there are programs to help the families 
change complicated dynamics that are preventing the child from thriving 
it might be a revolving door back into the foster care system.
    Up next we have Christine Calpin. She is the managing director of 
public policy at Casey Family Programs, where she heads the 
foundation's efforts to inform and education Federal policymakers about 
the need for comprehensive child welfare finance reform. She also leads 
the efforts to improve the child welfare public policy in states across 
the United States. Calpin has been working in public policy for 10 
years. Most recently she worked as an independent consultant on child 
welfare, child care, and family support programs for states and tribes. 
Prior to that, she worked for 2 years in the Administration for 
Children and Families at the U.S. Department of Health and Human 
Services.
    She first served as an associate director of the Child Care Bureau, 
and then as an associate commissioner for the Children's Bureau, where 
she oversaw a $7.2 billion budget and 130 employees responsible for all 
child abuse prevention, foster care, and adoption programs delivered by 
state, local and tribal authorities.
    Calpin is an alumna of the Hill as well. She has served here as a 
congressional staffer--the lead one--for the Income Security and Family 
Support Subcommittee of the House Ways and Means Committee. She worked 
with Members of Congress there and with others on passing legislation 
affecting programs including child welfare, child care, and the 
Temporary Assistance for Needy Families, also known as TANF, programs.
    Ms. Calpin.
    Ms. Calpin. Thank you very much. Good morning. My name is Christine 
Calpin and I'm the managing director of public policy at Casey Family 
Programs. And I'm pleased to be here with my colleagues and welcome the 
opportunity today to introduce you to Casey Family Programs and 
describe our vision for supporting children and families across the 
United States. Founded in 1966 with headquarters in Seattle, 
Washington, Casey Family Programs is the nation's largest operating 
foundation focused on safely reducing the need for foster care and 
building communities of hope for children and families across America. 
We work directly with child welfare agencies in all 50 states, the 
District of Columbia, Puerto Rico, the U.S. Virgin Islands, and 
directly with 16 American Indian tribal nations to influence long-
lasting improvements to the safety and success of children, families 
and communities where they live.
    We also work hand-in-hand with birth parents, with foster parents, 
and with an alumni of foster care, as we strongly believe their voice 
and their stories must be included to inform policy and practice 
change. This work, as well as the growing body of research on child 
development, brain science, and the significant impact of adverse 
childhood experiences has made clear that long-term foster care is not 
good for children and families. We need a robust system of supports and 
services, and a full continuum of care and for all of our communities 
and individuals to work together.
    Unfortunately, for the past several decades the Federal child 
welfare funding that we've provided has not supported these efforts. 
For every $7 available for children in foster care, only $1 was 
available to invest in services that prevented the need for foster 
care. Because of the national dialog, though, and all of the wonderful 
efforts that have been done to date, Congress debated and enacted a 
bipartisan and historic policy change regarding how Federal funding can 
be used by States and tribes for foster care and child protection. 
Known as the Family First Prevention Services Act, or what I'll call 
Family First, the president signed this into law in February 2018.
    Family First represents a fundamental shift in how the Federal 
Government partners with states and tribes in their efforts to support 
children and their families. Key facets of this law include unlimited 
entitlement funding for states and tribes to support prevention 
services for those at-risk children, their families, their parents, 
their kin, caregivers, in evidence-based programs that address a number 
of the challenges we've discussed today--substance abuse prevention and 
treatment, mental health services, and in-home parent skills training. 
The law also significantly increases the oversight and ensures that the 
placement of children in group care settings is both appropriate and 
necessary.
    Why? Because we know that children do best in family-like settings. 
Children who are raised in congregant care are almost two and a half 
times more likely to become delinquent than their peers in foster care. 
They have poorer educational outcomes and test scores. They're less 
likely to graduate from high school. And they are at greater risk of 
further physical abuse when they're placed in group homes. Fortunately, 
we've seen a shift in placements resulting in a reduction in congregant 
care. But we must continue to do more.
    Family First also provides for increased opportunities and supports 
for relatives who are the caregivers of their own family members. The 
research on kinship foster care tell us that children who cannot remain 
with their birth parents are more likely to have stable and safe 
childhoods when raised by relatives. But frequently, relative 
caregivers have told us that the supports they most often need include 
respite care, treatment, financial support, and mental health services 
for them, for their individual family members, and for others to really 
help them cope. Because of Family First, Federal funding can now 
support states in their efforts to allow children to safely remain with 
their families and with their family members, while at the same time 
continuing to support foster care placements when children absolutely 
need this.
    Family First makes it clear that our national child and family 
wellbeing response systems will not operate as though it's fully 
possible to help children without addressing the wellbeing of families 
in their communities. We've always known that it's vitally important 
that we intervene as early as possible. And Family First, through this 
funding, will give states and tribes the ability to target existing 
Federal resources in these important ways. It's a monumental shift 
toward transforming the way we support families, but we know there's 
more work that needs to be done. And we're looking forward to the 
ongoing dialog and opportunities to discuss these challenges ahead.
    So thank you very much and we look forward to any questions.
    Ms. Parker. Thank you, Ms. Calpin. Thank you for Casey Family 
Programs' work and Youth Villages' work; it was a huge lift to write 
and to get the Family First Prevention Services Act through Congress. 
We are eagerly awaiting its full implementation. And that would be my 
first question: How are we doing at implementation? It passed in 
February. It's been almost a year.
    Ms. Calpin. Yes, thank you for the question. It has been almost a 
year. A couple of pieces I would point out that I had in my testimony 
is when we talk about Family First being such a monumental shift, the 
legislation did envision a timeline for supporting states in really 
thinking about the new investments. The prevention services that were 
identified in the law first become available to states and to tribes on 
October 1 of 2019. So we've been aggressively engaged with them and 
with the administration in terms of getting the guidance and direction 
that's necessary out to states to really think about how this can be a 
tool in thinking about a new vision and system for supporting children 
and families.
    The administration has put a lot of really important direction and 
guidance out. We do, however, continue to encourage a lot of community 
stakeholders and a lot of other partners to really become involved in 
working with their states and helping to envision and think about where 
this could go and what could happen. So a lot of exciting direction. A 
lot of exciting opportunity. There still remain challenges ahead. And 
we're certainly looking for stakeholders and others to become engaged 
in helping to really educate on all these new opportunities.
    Ms. Parker. You mentioned in your comments that congregant care put 
children at a doubled risk for physical abuse and other forms of abuse 
and a doubled risk of being delinquent, risk of very low educational 
attainment. Congregant care is a smaller form of an orphanage. We moved 
away from the orphanage model to congregant care. It still operates 
parallel in some cases with foster care in the United States, which is 
family based. We're talking about failures of the foster care system 
and trying to keep children out of foster care system. Would it also be 
wise to fix the foster care system, or is that something that has a 
fundamental flaw that can't fully be fixed?
    Ms. Calpin. So I'm happy to start, and then would welcome my other 
colleagues. Absolutely. I mean, the importance of maintaining the 
safety and protection of children is fundamental. And a child 
protection system that does that in terms of allowing for appropriate 
foster care placements when absolutely necessary is one that we should 
support. And we should continue to strive and expect the best quality, 
the best care, and the most appropriate settings for these children. 
The improvements in foster care, to that end, do need to focus more on 
the upfront opportunities we have to do a much better job of 
identifying family members and community members who can care for our 
children at risk of foster care.
    The placement instabilities and the movement of these children out 
of your schools and out of their communities just continues to 
exacerbate trauma. So there's a lot that needs to be done to improve 
foster care. A piece of that, though, also needs to be a much better 
understanding and direction toward really understanding what it means 
for a child's safety to be at risk, and so what it means for a child to 
need foster care. And all of that would help us get to a better place 
of serving children in foster care.
    Ms. Foster. And I'll just add to that--Youth Villages provide a 
full continuum of care in a number of states, from prevention work in 
families and also residential programs that do provide care to children 
24/7, when they are removed from their families. And I would echo 
Christine in saying that there will always be a need for a foster care 
system. There will always be children who are serious risk of harm, and 
the state needs to come in and provide immediate emergency support to 
them. And so we very much agree that there's room for improvement in 
supporting bio families, supporting kin families, preventing entry, 
making entry into care as short as possible.
    But there is absolutely an opportunity, and the Family First Act 
addressed this as well, in elevating the quality of those residential 
programs, ensuring that high-quality clinical services are being 
provided while children are placed in those settings, that those 
settings are utilized only when that's really what is necessary for the 
child's physical, mental, and behavioral health, and that when that 
type of setting isn't necessary for those purposes, children are 
returned to a family-based setting. So we certainly believe that this 
whole continuum is necessary.
    There may very well need to be shifts in sort of where kids are and 
how long they're staying in various placements. And the Federal 
legislation took a significant stab at shifting how that looks across 
the country. But that elevating what is best practice in every single 
setting and trying to bring up the quality of care nationally in all 
these different types of settings and arrangements will lead to a big 
improvement in the system.
    Ms. Parker. How receptive have the states been thus far to the 
Family First Prevention Services Act? Because each state has--under our 
Constitution, states generally have the lead on childcare issues. The 
Federal Government backs them up. This is the Federal Government taking 
a huge step into what's traditionally been a state area. Are the states 
open to this? Are the social welfare societies within the state, are 
they excited about it, or is it going to be an education process?
    Ms. Calpin. It's both. There is a considerable excitement about 
this. We've spent decades in this country with leaders discussing that 
the biggest shortcoming that we had in partnering with states in the 
protection of children was at the Federal level only starting that 
partnership once they removed a child from their family, and not really 
recognizing all of their efforts in keeping children in their 
communities and supporting efforts to keep them with their families. 
That said, doing that requires a robust package of services. Every 
child in every family who comes to the attention of child welfare needs 
a different response. It shouldn't be a one-size-fits-all approach.
    Family First will be an incredible tool for these states. It will 
fund evidence-based mental health services. It will fund evidence-based 
substance abuse intervention, as well as evidence-based in-home parent 
skills training. But some of the families who will come to the 
attention of child welfare will need other services. So the excitement 
right now is in trying to figure out how best to leverage what Family 
First will do but build that into the system of what we know really 
helps all the families at the state level. So that requires a lot of 
challenges. It requires a lot of framework and planning. States are 
very much engaged in this. But at the same time, Family First took a 
very important and direct approach to making a policy statement about 
the values in this country and the importance of children being with 
families.
    And the changes to the group policies and the types of placements--
as Jessica's talked about in terms of requiring high-level oversight, 
high-level treatment services--basically say that if you place these 
children in settings that aren't high quality and aren't appropriate, 
you will do that at state cost. That created sort of a challenge, 
because the states who may not be as far along as others in having 
children in family life settings and who still have a lot of children 
in these congregant care placements are wondering financially what this 
means. And so seeing the value of prevention in a context of the 
ongoing investment they have right now in group homecare has limited 
some of the engagement in some state levels.
    And so I think the excitement around this needs to really focus on 
that this is really the chance to put our dollars where our values are, 
and not to think about the goal being child welfare operating as it 
currently does. Family First was about trying to say business as usual 
is not what we believe works for children and families. And, as you can 
imagine, not everyone is as receptive to that as you might like. But I 
think everyone is really trying to learn and understand where the 
opportunities are and how best to really take steps forward in this 
space.
    Ms. Parker. So just to talk practicalities, how much time are we 
talking about for care for each family? Someone might say, oh, it's 
much easier to take the child from the family and put them in care than 
it is to fix a broken family system--whether it be the parents or the 
extended family. In the experience of Youth Villages and Together for 
Good, how long do these families need to have a high level of 
concentrated care?
    Ms. Foster. Well, I would say that in our experience you can more 
economically serve children in families when you prevent them from 
entering care in the first place, in terms of how much taxpayer dollars 
are going into providing support. So if we are able to intervene before 
a child is removed from their home, and work with the whole family, 
anywhere from 3 to 6 months, or so, of intensive work in that family's 
home can lead to a much more stable situation. Once a child is removed 
from the home, first of all, typically the placements that they're in 
cost more on a daily basis than they do if you're working with that 
family.
    And often they get caught up in the system for years. And then if 
you want to return them to their biological family--which is the goal 
for most children who are in the foster care system, it is eventually 
to return to their biological family--the amount of time that family 
needs support to stabilize from that return is more time than if you 
had just provided services on the front end before bringing them into 
the system. So to Christine's point, if we are able to get better, as a 
country, at identifying these young people who are imminent risk of 
coming into care, and intervening before they come into care, it will 
lead to better outcomes, but it will also be a more economical approach 
to services and intervention.
    Ms. Sandberg. And I think that's where Together for Good, while 
we're a brand-new organization and trying to think outside the box in 
terms of what is best for children, that time is everything in the 
context of a parent feeling empowered to do well. When the gun of 
foster care is to their head at all times, it just changes the game in 
terms of their ability to change--no one changes based on a gun being 
put to their head. You better fix this or else. And so in our work, the 
goal of building trust and trusting relationships has been phenomenal.
    We've had women who have been in drug and alcohol treatment. Why 
would children need to go to foster care just because mom needs 
treatment? And so she voluntarily asks for help. And we provide that 
hosting experience while she's in treatment. And during that time, the 
parent-child relationship is committed and growing, and the services 
around professional supervision of that case and our case management 
when we're working with the drug treatment and our staff to come 
alongside that family, over time trust is built and the family feels 
empowered to move forward.
    Once we've served kids who are--Child Protection is no longer 
involved, and the case is closed, we're dealing with the same sorts of 
trauma. And it takes longer. But in short, what's the beautiful thing 
that we're doing is really if a child doesn't have to go to foster care 
and can be hosted by a private individual, that brings a cost savings 
to society as well, right?
    Ms. Calpin. Yes. Yes, if I can just add, too. I think one of the 
lesser-known facts about our foster care system is that the most likely 
outcome for a child who enters foster care is to be reunified with 
their parents. And the reunifications tend to happen within about 11 
months. Some happen within 2 months. These children are the families 
that we're trying to understand most about the opportunities in Family 
First, because if you're bringing a child into care for such a short 
window of time, after which you're reunifying, did you really need to 
even remove that child from their family?
    I think the answer's also a lot more complicated, because I think 
there's also this perception in our foster care system that children 
come into foster care for reasons of physical abuse, sexual abuse, et 
cetera, which they do. But the data actually tell us that the largest 
percentage of children who are removed are removed for reasons that are 
categorized as neglect. And that spans the continuum of housing 
stability to truancy at schools. Those are much different responses 
that can be very quickly addressed. If we're talking about lack of 
housing, again, in a world where housing is not so scarce for our 
families, stabilizing housing is a much different response than 
addressing abuse challenges for a child.
    And so some of this also relates to the ability of understanding 
how long a family needs to be formally involved and what is the child 
protection system whose responsibilities should be mitigating risk and 
safety for that child, versus the importance of making sure that every 
family and child is connected in their community. You know, we've 
talked a lot about the number of children who in this country, 
unfortunately, take their own lives every day. And what we absolutely 
do not want is for children to be safely reunified with their families 
at home, but in communities where that level of despair also becomes 
such an issue.
    And so it's such a longer answer than just the notion of a program, 
because it specifically beings to think about how we as a country work 
with our space to design child protection programs that serve children 
as long as necessary, but then make sure--as you said--when you have, 
quote, ``closed'' a case, you haven't done that without making sure 
there's a connection, or a community partner, or someone there who can 
continue to assist that family, because as we all know--we've talked 
about the moms in McDonald's, et cetera, we all look for those 
supports. We all look for those people who can help us. And that's 
something that a child protection system can't create, but that a 
community can, right? And that's just going to be so important to our 
long-term success.
    Ms. Parker. So, Ms. Sandberg, how does Together for Good get 
connected with parents and families that may need extra community 
support? And how do they help build community for those families?
    Ms. Sandberg. Yes. So, in Minnesota, 70 percent of the time when a 
call is made to child protection it's screened out, which means then 
there's opportunity for a child to fall through the cracks, or a 
family. And so we have connections with either public health nurses and 
school social workers who are sometimes the very first to notice a 
child that's near or a family that's going through a temporary crisis. 
But it is just that homelessness crisis. And then identify from there 
those referrals that come to us.
    So then we do the intake process, and them match them with an 
approved family that would host the child temporarily and/or build 
those community relationships for that family, becoming more of an 
advocate/cheerleader for a family in the hybrid role, if you will, of 
opportunity. What we found most exciting is that the community at large 
truly does want to help and serve in ways that aren't necessarily about 
the foster care system itself. But they see the needs and then are--
given the opportunities, they want to help.
    We recruit people just through local churches. So we have teams 
built out by accountability. Each church has its own coordinator of 
care as well as the staff that oversees our cases. So we have about--
again, we're I think about 40 churches in the Minnesota area that are 
willing to help with families in crisis. And each church has its own 
coordinator. We monitor and train those people. So we provide that 
professional oversight to a mobilization of the community at large, 
connecting them with resources and skill sets.
    Ms. Parker. So then you professionally screen the volunteer 
families that come to you?

    Ms. Sandberg. Yes, ma'am. We have a full background check, home 
study experience, as well as references and training, especially on the 
issues of trauma-informed care and the opportunities to have best 
practice in that. It's really important we know.
    Ms. Parker. And how long do the families that are referred to you 
for assistance--how long do they stay connected with the communities 
that you help build for them?
    Ms. Sandberg. Now--I mean, it's over years. I mean, people build 
relationships that don't really go away. That's been the beautiful 
thing. But primarily the child is in care with us an average of about 
50 days. So parents--[inaudible ]--that. But, again, during that time 
it's continued parent-child visits, parent-child communication every 
day. There's not a system separation time. And so parents are empowered 
to then put the oxygen mask on first, while their child's safely being 
cared for, and over time that relationship builds so there's an extra 
adult in their life. Simple things like, what do I do if I run out of 
formula in the middle of the night, I have someone to call, right? When 
I call you, you're here for that.
    So mobilizing people who care has been a really powerful 
experience. There are 10 families that are hosting children, but there 
are 45 families wrapping around those families, bringing support to the 
host family, bringing support to that family in crisis. I mean, one of 
the cries in Minnesota has been that foster parents feel unsupported in 
terms of extra resources and extra wraparound care, that respite 
becomes such a critical piece. And so while we grow this organization, 
we've had the opportunity to intersect in meaningful ways in that way 
as well to help support foster parents.
    Ms. Parker. So you're offering not only families to take the 
children in temporarily, but then families to give respite to the 
families that have taken the children in temporarily.
    Ms. Sandberg. Absolutely. Yes.
    Ms. Parker. And do you have enough families coming forward to do 
this? They're doing it for free, yes?
    Ms. Sandberg. Yes. People volunteer to help. There's no money 
exchanged. Which is another highlight for parents, because they truly 
can understand, you're not getting paid to take care of my child. And 
so that becomes just an opportunity for growth and expansion. People 
want to help. And then we provide that extra resource of support. 
Someone else is buying the diapers. Someone else is bringing you a 
meal. You don't feel so weighted down by the experience of inviting 
another person into your home. There's some phenomenal families out 
there who truly just want to help if given the opportunity, knowing 
then that they're actually building a wall, a hedge, a protection, if 
you will, around the family.
    Ms. Parker. And now is it different from the foster care system in 
the sense of the relationship between the child and their biological 
family during the period in which the child is in care?
    Ms. Sandberg. Yes, it's really no different than me asking you to 
watch my child for 2 weeks while we're away. So we're trying to do 
every-day conversations, meeting up for playdates. We try as best 
possible in the school systems to keep the kid in the same school, so 
those relationships are still in place. In the State of Minnesota this 
is allowed, because we have a statute that allows for power of 
attorney, so that I have the opportunity to give you power of attorney 
even for a temporary period of time, which then gives them the 
freedom--that host family--the freedom to act as parent if necessary, 
but then also engage mom in meaningful ways in terms of asking her 
questions about how she parents and what she thinks is best for her 
child.
    So that relationship is very critical. And the importance--the 
difference becomes when you and I meet and have a conversation, and I'm 
going to tell you about my child and--he's allergic to peanut butter 
and make sure he uses his nookie at bedtime--it's a whole different 
experience than a stranger taking my child away from me, and the fear 
that stranger is not caring for my child the way I want. That becomes a 
powerful source of then hope, which then creates opportunity to say: 
I'm going to wake up tomorrow morning and I'm going to go look for that 
housing that seems impossible. So it's been a powerful thing, the story 
of hope doing this.
    Ms. Parker. Ms. Calpin, in the U.S. foster care system, what is--if 
the child goes into official foster care, how does that affect the 
parent-child relationship?
    Ms. Calpin. Well--and I was as she was speaking about this in terms 
of how it's different from foster care--we've talked with birth parents 
about their experiences with the system, and what they found was 
challenging I characterize as in the child protection system we view 
our birth parents as a risk versus a strength. And what that 
unfortunately does is really create a huge barrier for that child and 
that parent to continue to develop, because I think every child expects 
their parent to care for them and to protect them. And so children 
can't understand when they're taken away from their parents why their 
parents let it happen, right? And so developmentally what it impacts in 
terms of a relationship is so hard.
    And, again, as we've always said, for child protection reasons 
there will be a number of children for whom that removal is necessary. 
But the families and the children that Together for Good are serving 
are those children where the risk of safety for that child is not one 
that warrants removal. And so that allows a child protection system to 
really work in a way that it can really think through: Is it best for 
the child to remain with this parent? Is there truly a safety issue? 
And work with those children where we very strongly and very surely 
have safety concerns, because we've not created unnecessary trauma and 
unnecessary removals of other children that could be served in a 
different way.
    And I think that's what we've tried so much to talk about--foster 
care is traumatic. And a lot of these children have already suffered 
trauma. And we're just continuing to exacerbate that.
    And recognizing that we're going to eventually reunify and create 
even more challenges has just allowed us to view that as a system we 
can't continue to operate in this way.
    Ms. Sandberg. And I would highly agree. I mean, there is an 
absolute necessary place for child protection to do its work. And our 
hope is that if we go upstream far enough, we catch it before it ever 
gets to that place. And at the end of the day, numbers are everything 
in this game. You can't have too many children coming in that 
direction, because we're already overloaded. Our families--foster 
families are overloaded themselves, and social workers are extremely 
stressed. So we're trying to bear some of that burden upstream in terms 
of prevention.
    Ms. Calpin. Well, and I'll just--I think this is what we talk 
about--is every family, every child deserves a unique approach, right? 
And how do we best determine what that approach should be? And in a 
system where we're able to really think and respond at different levels 
and different tiers, based on engaging with them earlier, I think 
that's exciting. And you know, child protection in a system driven by 
courts and lawyers and judges. It's intended to be one that really 
looks at a system differently than what you're doing in terms of trying 
to engage with families in a supportive way. And the goal is to try to 
think about how we move our system to better work in both ways.
    Ms. Parker. Ms. Foster, you mentioned in your presentation that 
Youth Villages does a high level of evaluation for what is working and 
what's not working with the families in which you engage. How are you 
being connected with your families, first of all? Is it from a call to 
child protection services? Is it through schools? Is it in similar ways 
as to how Together for Good is connected with families? And then what 
are some of the overall statistics that you're seeing, and how has it 
changed your approach?
    Ms. Foster. Youth Villages finds out or is connected with children 
primarily through child welfare agencies--a child welfare agency is 
receiving a call about a child being at-risk. And that agency typically 
does an initial investigation into the case and decides if it warrants 
a higher level of intervention. And then states contract with--or, 
counties--contract with Youth Villages, just like other community-based 
service providers. And if a child needs a high level of support and 
intervention that is beyond the kind of basic visitation that that 
public agency provides, they will contract with Youth Villages to 
provide services.
    So that's typically how we're working. But a child that is in the 
foster care system, we also provide services through mental health 
Medicaid system. We provide services to older youth aging out of care, 
and some of those other cases. Like, with older youth, they may self-
refer into our services. So there's some variety. But what I just 
described is typically how we're finding out about a child. And in 
terms of--you mentioned how we track outcomes and how that's impacted 
the work.
    Ms. Parker. And what are some of your outcomes?
    Ms. Foster. So pretty early into Youth Villages' history, we 
started collecting outcome data on, as I mentioned, at completion of 
services, as well as 6, 12, and 24 months post-completion of services 
delivered through us--where are the children? Are they at home with 
their family? Where are they living? Have they come back into care, 
whether it's through us or the child welfare system sent them to some 
other placement? How stable are they? What has been their involvement, 
if any, with the criminal justice system? Some states have integrated 
child welfare and juvenile justice systems. Some states have separated. 
So it looks differently in different parts of the United States. And 
how are they doing in school?
    And so we--as well as a lot of additional data--we capture that 
data on all the children and families that we're working with. And that 
gives us feedback on how are the services going? And when we initially 
made the transition from being dominantly a residential provider to 
being primarily in-home services providers, it's because we found out 
that when we provide these intensive in-home services, that data looks 
a lot better. Kids are much more likely to be safely stable at home 
with their families 2 years after we worked with them than if we 
provided residential and then that was it, and they got reunited with 
their family without any sort of additional support.
    We also work with third party research organizations, for instance 
MDRC, that will look at not just the data of how children served by us 
are faring, but how they're doing compared to a comparison group. So 
what the Family First Act requires in terms of prevention services is 
that services that receive Federal reimbursement have proven that they 
are effective compared to what else that child might get. And typically 
that requires a third-party research organization to be collecting that 
data, because we have the data on the kids we serve. We don't have the 
data on the kids we don't serve. The public agency has that data.
    So one other thing that I think is important to take away related 
to Family First Act and in general is that the public system, the child 
protective system, has a huge, robust amount of data on what services 
are being provided to kids, how those kids are doing, how they're doing 
today, how they're doing 2 years later. And there is a huge opportunity 
now to harness the power of that data for us to really know what is 
working and to compare different interventions to each other and how 
are kids doing 1, 2, 3 years down the line. And we have a lot of data 
as a country. We don't always use that data to capture those insights 
of what's really working. So we try to do it as best we can as an 
agency, and also work with our public agency partners to capture a 
fuller picture of the data about what works.
    Ms. Parker. Well, this has been a tremendously encouraging 
conversation as we work through different models of how best to care 
for children, what is in their best interest. And what I'm hearing from 
the panelists is that if they can be kept with the family, that is the 
best interest. And we have some new best practices that we've developed 
here to make that possible when the families are safe for the children.
    Are there any closing remarks that any of the panelists would like 
to make?
    Ms. Foster. I'll just mention--and I think this has been a theme 
today--but families really are the solution. I think, you know, in the 
United States back--people have been talking about orphanages and also 
talking about Norway and some other countries. And it's very easy to 
pass judgment on other families as an outsider. And it's very easy to 
pass judgment on other families when you are a government entity or a 
private service provider. But almost all parents love their children 
and want to do well by their children. And if they are given the 
resources, and the skills, and the training to raise children safely, 
that is what they want to do.
    And so finding a way to empower those families to do what they want 
to do anyway--and most kids want to be with their biological families. 
They don't want to be taken away. They don't want to be taken away, 
even if they're experiencing abuse. And so how do we equip these 
families to do what they want to do anyway, instead of passing judgment 
on what's happening and immediately traumatizing kids and parents by 
removing them.
    Ms. Calpin. I would second that. And when we talk with youth in 
care, overwhelming when you ask them what you can do to help them, they 
would always say: You can help my mom. You know, you could have helped 
my mom. You could have served her differently.
    That's why we're all so excited about what Congress and the 
administration did with Family First, and why this really is a sea 
change for states and for communities in how they've served children 
and families. And working and really educating yourself on this 
opportunity and becoming involved in sort of supporting child welfare 
in this new direction is going to be so critical with that.
    Ms. Sandberg. And I would echo as well that families are 
everything. We are created to need each other and created to be in 
relationship with each other. And my call would be to the public at 
large and the communities around the country to say, what is your part? 
Because this isn't just a government solution. This isn't a 
programmatic solution. It's a good neighbor--like, how are we going to 
love our neighbors and come alongside them? This isn't just for--
families everywhere in crisis, not just the poor. And maybe this would 
do us all some good, to learn to love our neighbors better.
    Ms. Parker. Thank you all so much for joining us today with your 
incredibly well-informed insights. This briefing will be posted on the 
Helsinki Commission website in video form, and there'll be a transcript 
up as well. Thank you so much for joining us today. [Applause.]
    [Whereupon, at 11:34 a.m., the briefing ended.]



                               [all]




  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                              * * *
                              

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                              * * *
                              
                              
           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                              * * *

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
